                                                            NATIONAL SCIENCE FOUNDATION
                                                             OFFICE OF INSPECTOR GENERAL
                                                               OFFICE OF INVESTIGATIONS

                                                     CLOSEOUT MEMORANDUM

Case Number: A12120081                                                                                           Page 1 of 1



        NSF OIG received an allegation that a Subject 1 misappropriated another researcher's 2 DOD-
        funded data in an NSF Proposal 3 he wrote for a PI4 at a different institution. 5 A separate
        allegation claimed that the Subject, in his Proposal, sought funding for already funded and/or
        completed work. 6

         We did not substantiate either allegation. Specifically, we found that the Subject was a named
         author or co-author on documents containing the DOD-funded data and that the Subject even
         referenced the co-authored research in the Proposal's Reference section. A subject matter expert
         also determined that the Subject was not seeking funds to complete already funded or completed
         work, but rather sought to build on the previously completed work.

         Accordingly, this case is closed with no further action taken.




         6
             The allegation also included matters outside of our jurisdiction that were investigated by appropriate authorities.




NSF OIG Form 2 (11/02)
